Docket No:

UNITED STATES SUPREME COURT

STATE OF MAINE,
Plaintiff-Respondent,
V.

NOAH GASTON,
Defendant-Petitioner.

On Petition for Writ of Certiorari
TO THE MAINE SUPREME JUDICIAL COURT

PETITION FOR WRIT OF CERTIORARI

ROBERT C. ANDREWS
Attorney for Noah Gaston
Bar Number 8980
117 Auburn Street Suite 201
Portland, ME 04103
Tel. 207-879-9850
Fax 207-879-1883
E-mail rob.andrews.esq@gmail.com

STATEMENT OF THE QUESTIONS PRESENTED
1.

Does Maine’s murder statute violate the Fourteenth Amendment to the United
States Constitution because it does not require the state to prove beyond a
reasonable doubt that Noah Gaston knew it was his wife and not an intruder
because Maine law defines knowing as a general intent only requiring actus reus?

2

TABLE OF CONTENTS
Page
STATEMENT OF THE QUESTIONS PRESENTED ...................................................................... 2.
TABLE OF CONTENTS ............................................................................................................ 3.
TABLE OF AUTHORITIES ...................................................................................................... 4.
CITATIONS OF OPINIONS AND ORDERS ................................................................................... 5.
JURISDICTIONAL STATEMENT ................................................................................................... 6.
PROVISIONS OF LAW .................................................................................................................... 7.
STATEMENT OF FACTS ................................................................................................................. 8.
ARGUMENT.................................................................................................................................... 13.

I.

The Maine Supreme Judicial Court was incorrect when it held that
intentional and knowing murder did not require Mr. Gaston to be
aware of the fact that made his conduct wrongful. ....................................... 13.

II.

Due Process requires the State put a defendant on notice of the elements of
its charges which it failed to do by presenting this as general intent theory
of murder based on depraved indifference instead of the specific intent crime
required for intentional and knowing murder. ................................................. 23.

III. The United States Supreme Court should grant the Petition for a Writ of to resolve
what specific intent is required for the knowing culpable state of mind. ......... 26.
CONCLUSION .......................................................................................................................... 27.

3

TABLE OF AUTHORITIES

UNITED STATES SUPREME COURT CASES
Elonis v. United States 575 U.S. 723, 135 S. Ct. 2001, 2022 (2016)…………….14, 23, 24
Carter v. United States, 530 U.S. 255, 266 (2000) ……………………………16, 24, 26
Rehaif v. United States, 139 S. Ct. 2191 (2019) ………………………………15, 16, 25
Staples v. United States, 511 U.S. 600 (1994)……………………………………………24

MAINE SUPREME JUDICIAL COURT
State v. Gaston, 250 A.3d 137 (2020)…………………………………………Passim

State v. Knight, 43 ME 11, 35 (1857)…………………………………………….17, 18
State v Lewisohn, 379 A.2d 1192, 1207 (Me. 1977)……………………………………18
State v. Cummings, 166 A.3d 996, 1001 (Me 2017)……………………………………24

STATUTES
17-A MRS § 201………………………………………………………………………6, 21, 22
17-A MRS § 203……………………………………………………………………………..6
17-A M.R.S. § 1158-A……………………………………………………………………….6
17-A M.R.S. § 1252………………………………………………………………………….6

4

CITATIONS OF OPINIONS AND ORDERS

State of Maine v. Noah Gaston CUMCD-CR-2016-488, 6/29/20, and State v. Gaston, 250
A.3d 137 (2020).

5

6

JURISDICTIONAL STATEMENT
Review on Petition for Writ of Certiorari. The Petitioner makes this petition based on
the jurisdiction conferred by Article III Section 1 of the United States Constitution and Rule 10
of the Supreme Court Rules. The Decision in the Maine Supreme Judicial Court deals with an
important federal question and conflicts with other decisions of the Supreme Court of the
United States. This petition has been timely filed by 150 days from April 29, 2021.
Appellate Jurisdiction. The Petitioner takes this appeal as of right in a criminal
prosecution the notice of appeal must be filed in the district court within 21 days after entry of the
order or judgment appealed. The notice of appeal in this matter was timely filed on July 16, 2020.
Original Jurisdiction. The Maine Superior Court of the State of Maine has original
jurisdiction of count 1 – Intentional or Knowing Murder under 17-A MRS § 201(1)(A) and § 1158-A 1(B)
and count 2 – Manslaughter under 17-A MRS § 203(1)(A), § 1252 (4) & (5), and § 1158-A 1(B). A Sentence
of forty years was imposed on June 26, 2020.

6

PROVISIONS OF LAW

US.CA. Const. Amend. XIV (West 2021)

All persons born or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein they reside. No state shall make or enforce any
law which shall abridge the privileges or immunities of citizens of the United States; nor shall any
state deprive any person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.

17-A M.R.S. § 201(1) (West 2020)
A person is guilty of murder if the person:
A.

Intentionally or knowingly causes the death of another human being;

B.

Engages in conduct that manifests a depraved indifference to the value of
human life and that in fact causes the death of another human being; or

C.

Intentionally or knowingly causes another human being to commit suicide by
the use of force, duress or deception.

7

STATEMENT OF FACTS
On January 14, 2016 at 6:17 am, the emergency dispatch received a call from Noah Gaston.
Mr. Gaston told the operator, “I just shot my wife in the stomach. I thought she was an intruder. She got up
super early in the morning and sounded crazy.” The operator asked, “is she was awake?” Mr. Gaston replied
“No.” The operator asked, “is she breathing?” Mr. Gaston replied, “No I don’t think so.” The operator told
Mr. Gaston that she was getting her officer started and to stay on the line with her. The operator gave him
instruction and asked him to start chest compressions. In the recording you can hear Mr. Gaston counting as
he tried to follow the operator’s instructions until the police arrived. State’s Exhibit 23 TT at 171
Within minutes of the police arriving, Mr. Gaston told Officer Justin Hubnor from the Windham
Police Department what happened.
I heard noises down here, and it was probably was like in the middle of the night, and, and I
checked the bed to see if the girls were in the bed. Normally they come down early if they
were going to like, make breakfast. I’m pretty sure it was like too early for that. So, after
checking their beds, and I was pretty sure it sounded like a walky-talky… And did not
expecting to hear or see anyone, and my wife’s turned around, and started coming up the
stairs…. …and I shot her. Thinking, thinking it was an intruder. Like, thinking like, holy shit,
someone’s about to come up the stairs at me. Um, just because of all of…the of the other
noises. But I really thought she was until like, I like said something about the, I was checking
um, noises. And I didn’t grab my gun. I listened at the top of the stairs, and then I heard what
sounded like a walky-talky. So, I don’t know if you have like a device with you know,
something that’s playing low? Um, but it’s like, the way it sounded and what the noise is. So,
I checked on the girls, and the girls were in bed. And so, then I grabbed you know, I, I
grabbed the shotgun and went to the top of the stairs because it sounded like whatever it was,
you know the person was coming. You know I think she was even, that’s not, that’s, I don’t
even think that’s accurate. Like I don’t, I think when I got to the top of the stairs with the gun,
I don’t think there was anyone on the stairs. But, I don’t think she started. And then by the
time I kind of raised the gun, like of an end case, she was like halfway up the stairs, or
something, or, or a couple stairs up.
State Exhibit 71 TT at 295.
A few hours later, Mr. Gaston was just as open with Maine State Police Detective Ethel Ross. He told
Detective Ross,
When I got up, the way I got out of bed is like I felt that my son was there because I could
feel him tossing and turning. But thought she was still there. I got out of bed and my mom
8

had given me these ridiculously floppy, fat socks ... I was like standing and like slipping on
and thinking, you know, and, and, because I, because I heard noises downstairs. Um, oh,
man, I can't believe it. And so I got out, I got up to check and when I heard, I mean, I heard
just like noises like, like someone was down there. which wouldn't have alarmed me
somewhat, just not like I'm, you know, like all, all, like, like ahhh, like I'm not, I'm not a
fearful person. I heard these noises. It was clearly someone was down there and it sounded
like creep, like it sounded like definite creeping around. And so I got out of bed, hearing
noises, just went to the, the top of the stairs without anything, like no, like, you know? And so
I got out of bed, hearing noises, just went to the, the top of the stairs without anything, like
no, like, you know? And then what I heard was a quick shuffling and then sounded like a
walkie talkie. I'm thinking like holy crap like what is that? And so I went and checked to see
if the girls were in their bed. And I may have checked to see if they were in their bed when I
first heard the awkward noises and then stood at the, at the stairs, top of the stairs, I think
that's how it happened. So I knew that they were in their beds. I had falsely assumed that my,
that my wife was in the bed with me. And I was like that's it. Like and it sounded like
someone's coming towards the stairwell and I was like, oh, shit they'll be up here any second
or someone ... ... is like, like right there. They're fli, it sounded like someone was like
flanking. The, because the way our house goes around like that and so it was such an odd
noise to hear and there were some other issues. She apparently started a laundry in the
basement. We're new to the house. Like some of the, some of the noises were really different
than I'm used to hearing and then with her turning what, so I don't know that she did this, but
this like totally like hit me when the other guy was stan, sitting here. Is that there's a
possibility of her using her SERI thing. Because whatever, whatever I heard did not sound
like her. So it's like, to me I heard rsh, rsh, rsh, rsh, sh and I was like holy shit, like so, some ,
someone's here and so I went and grabbed the gun and put, urn, and it wasn't loaded, but I do
have ammo stored up above in the closet and so I grabbed a, ah, a shell and put it in the gun
and then went to the top of the stairs and she had just started like corning up the stairs, urn,
but like the timing and I wear glasses and I didn't have them on. And her, like her head was
down and so it just was like someone's corning up the stairs at us and so I fired. Ah, and then
that's, it's like, like as, as, as it hit her, did she sort, like kind of fall backwards and then in the
light of the light downstairs could I see that it was her and see what happened. Urn, and so I
went down and, ah, and was, holy shit, so she, I think maybe, she maybe was able to say like
call 9-1-1. Urn, and I, I don't know what I, I tried to do first. I'm pretty sure I went to go look
for a phone and was trying to find like the cell phones because they're just, we leave them,
you know, around the house.”
State’s Exhibit 66-B. TT at 467.
Troy Crabtree was called by Ethan Smith and asked to go pick up Mr. Gaston at the Windham Police
Station where he was finishing his interview with Detective Ross. TT At 367. Mr. Crabtree and Mr. Smith
were in charge of what they referred to as discipleship which was a less formal church meeting every Sunday.
Mr. Smith and Mr. Crabtree knew Noah and Alicia from their church Missio Dei. TT 367. They took Mr.
Gaston to the First Baptist Church in Portland. TT at 373. Once he was at the First Baptist Church, Mr.
Gaston told Mr. Crabtree and Mr. Smith what he told Detective Ross. At the end of Mr. Gaston’s recounting,
9

Mr. Crabtree and Mr. Smith asked, “if there was anything else that he wanted to tell us and [Mr. Gaston] said
no, and that this was the only story that he could tell if he wanted to see his children again.” Mr. Smith
Responded, “Is there another story that you could tell?” TT at 379. Mr. Gaston replied, “No that-that is what
happened.” TT at 379.
The Maine Supreme Judicial Court’s opinion included the operative facts. At the close of the
evidence, the State and Gaston discussed the court’s proposed jury instructions and verdict form. Gaston
contended that “in the case of an intentional or a knowing murder where depraved indifference is not charged,
the intent has to be specific both to the idea of killing and to the idea of a specific person. It can’t be just
someone who ends up dying.” The State responded that the statute requires only the death of another human
being. The court added Alicia Gaston’s name in the instructions where appropriate, but the court was not
persuaded by Gaston’s argument that the State had to prove, as an additional element, that the defendant
intended to kill the person whom he had, in fact, killed. The following instructions were given to the jury:
The law of the State of Maine provides that: A person is guilty of murder if the person
intentionally or knowingly causes the death of another human being. In order for the State to
prove beyond a reasonable doubt that Noah Gaston committed the crime of murder, the State
must convince you beyond a reasonable doubt of the following three facts: First, that another
person, Alicia Gaston, is dead; Second, that Noah Gaston caused her death, which means that
Ms. Gaston’s death would not have occurred but for Mr. Gaston’s conduct; and, Third, that
Mr. Gaston acted either intentionally or knowingly when he caused Alicia Gaston’s death. A
person causes death “intentionally” if it is his conscious object to cause another person’s
death. On other hand, a person causes death “knowingly” if he is aware that it is practically
certain that his conduct will cause another person’s death.

The jury returned a guilty verdict on one count of murder and found “that the crime of murder was
committed with a firearm against a person. State v. Gaston, 250 A.3d 137 (2020).
At the charge conference, Counsel objected to the generalized person langue in the charge.
TT at 1052. Defense Counsel wanted the instructions to say [t]hat instead of a person, that it just be
intended to kill Alicia Gaston. TT at 1053. Mr. Gaston’s counsel articulated that the instructions as
drafted could be any person and it did not have to be specific to Alicia Gaston. TT 1052. Defense
10

Counsel thought that “in the case of an intentional or a knowing murder where depraved indifference
is not charged, that the intent has to be specific both to the idea of killing and to the idea of a specific
person.” TT at 1052 Defense Counsel also stated it could not “be just someone who ends up
dying.” TT at 1052. Defense Counsel had planned to argue that it had to be a specific person. TT at
1058. The Trial Court specifically instructed Defense Counsel not to make that argument. TT at
1058.
The State explained its plan to argue a depraved indifference theory of murder during this
discussion over specific person during the charge conference. TT 1058. Reading from her opening
the Assistant Attorney General told the court: “Noah Gaston pulled the trigger on his Mossberg
shotgun in order to kill the person on the stairs. He succeeded in killing the person on the stairs.
That's murder.” TT at 1059. Defense Counsel informed the Court that if the State argued a depraved
indifference theory of murder at closing, it would draw an objection. TT 1054. After the State’s
closing, Defense Counsel objected to this argument. TT at 1096.
The Trial Court endorsed the States reading of the law, “I agree with the State that, in my
view, the Legislature has defined the elements of the crime and the elements of the crime of murder
have been enacted as the death of a human being. TT at 1058. Jury was instructed that another
person, Alicia Gaston is dead; . . . Third that Mr. Gaston acted either intentionally or knowingly
when he caused Alicia Gaston’s death. TT at 1129. Defense Counsel objected to the instructions as
given for reason described in the charge conference. TT at 1143. The jury began its deliberations.
On November 20, 2019, the jury sent a note that read “to satisfy element 3 of murder must Mr.
Gaston have acted intentionally or knowingly to cause the death of Alicia Gaston specifically or is it
sufficient to act either knowingly or intentionally to cause the death of another person. The Court
responded by directing the jury to page 2 and 4 of written jury instructions. Mr. Gaston was
11

convicted. The Court sentenced Mr. Gaston to 40 years.
After the verdict, Gaston renewed his motion for judgment of acquittal and made a motion
for a new trial based on his argument that the State was required to prove an intent to kill a specific
person. The court denied both motions, stating that “any rational fact-finder could have found
beyond a reasonable doubt that Mr. Gaston acted intentionally or knowingly when he caused the
death of Alicia Gaston” considering that from the testimony a “rational jury could have unanimously
found beyond a reasonable doubt that Mr. Gaston actually knew that the person coming up the stairs
was in fact his wife, Alicia Gaston, when he discharged a shotgun into her abdomen when standing
in relatively close proximately to her.” The court also determined that the jury instructions were
appropriate.
The Maine Supreme Judicial Court did not address the scienter aspects of knowing in its
decision upholding the Trial Court’s decision not give the requested instruction. Instead, the Maine
Supreme Judicial Court adopted the State’s argument:
In State v. Mann, the defendant argued that the proposed jury instruction “needed to
inform the jury that prosecutors bore the burden of proving that the fatal blow was not
inflicted in self-defense.” 2005 ME 25, ¶ 11, 868 A.2d 183. In that case, we stated
that “[e]ven if we assume[d] that [the defendant]’s proposed instruction adequately
state[d] Maine law, was generated by the evidence, and was not misleading or
confusing, the trial court's instructions adequately covered the prosecution's burden of
proof.” Id. We concluded that “[w]hen jury instructions closely parallel the provisions
of the Maine Criminal Code, they are adequate to provide the jury with the necessary
information.” Id. ¶ 13. Here, the court's instructions closely paralleled the language of
the statute, and the court properly denied Gaston's request for additional jury
instructions.
State v. Gaston, 250 A.3d 137, 145 (2020). The Maine Supreme Judicial Court simply sidestepped
the issue. Instead of recognizing Mann’s holding applied to a collateral matter that did not negate
scienter, the Maine Supreme Judicial Court simply applied it to the facts here even though scienter
would have been negated if the person on the stairs had been an intruder. This issue is more complex
12

than the opinion below suggests.
Moreover, the due process requirement of the Fourteenth Amendment’s effect on Maine’s
interpretation of knowing seemed to be lost on the Maine Supreme Judicial Court. Their comment
on the Fourteenth Amendment did not even mention that mens rea requirements of knowing under
federal law:
Gaston also contends that his due process rights were violated when the State
included Alicia Gaston's name in the indictment instead of the phrase “another human
being.” Although the indictment included Alicia Gaston's name, it also included that
it was “all in violation of 17-A M.R.S. § 201(1)(A)”; this statute requires that the
defendant cause the death of another human being. 17-A M.R.S. § 201(1)(A) (2021).
Therefore, the indictment was sufficient to apprise Gaston of the charge against him
and allow him to prepare a defense; the fact that the State put a specific name in the
indictment does not change the elements required by the statute. See State v.
Gauthier, 2007 ME 156, ¶ 17, 939 A.2d 77 (“The test for determining whether an
indictment is sufficient is whether an accused of reasonable and normal intelligence
would, by the language of the indictment, be adequately informed of the crime
charged and the nature thereof, so that the accused could properly prepare his
defense.” (alteration omitted) (quotation marks omitted)).
Id., at n6 144. Despite having been briefed and presented at oral argument, the Maine Supreme
Judicial Court refused to acknowledge this Court’s growing jurisprudence and precedent on scienter.
In particular, the opinion made no attempt to reconcile how willful and knowing have been defined
for purposes of federal law by this Court. Mr. Gaston asks this Court to accept this petition for that
purpose.
ARGUMENT

I.

The Maine Supreme Judicial Court was incorrect when it held that
intentional and knowing murder did not require Mr. Gaston to be aware of
the fact that made his conduct wrongful.

The Trial Court instructed the jury, over Mr. Gaston’s objection, that the State only had to
13

prove that he intentionally or knowingly intended to kill a human being, despite indicting him on the
charge of causing the death of his wife, Alicia Gaston. This improperly states the law on intentional
or knowing murder and therefore the jury’s verdict should be vacated.
Mr. Gaston asserted then and asserts now that intentional or knowing murder requires some
proof that he had knowledge that the figure coming up the stairs at him was Alicia and not an
intruder meaning to harm him or his family. After the conclusion on the day before the Court
expected to have the charge conference, however, the State began asserting for the first time a
general intent theory of murder that only required proof of the intent to kill and not the intent to kill
Alicia Gaston. The State’s theory is an echo of a position taken by Justice Thomas in his dissent to
Elonis v. United States:
But general intent requires no mental state (not even a negligent one) concerning the
“fact” that certain words meet the legal definition of a threat. That approach is
particularly appropriate where, as here, that legal status is determined by a jury's
application of the legal standard of a “threat” to the contents of a communication.
And convicting a defendant despite his ignorance of the legal—or objective—status
of his conduct does not mean that he is being punished for negligent conduct. By way
of example, a defendant who is convicted of murder despite claiming that he acted in
self-defense has not been penalized under a negligence standard merely because he
does not know that the jury will reject his argument that his “belief in the necessity of
using force to prevent harm to himself [was] a reasonable one.”
575 U.S. 723, 135 S. Ct. 2001, 2022 (2016) (Thomas, J. dissenting) (emphasis in original). Like
Justice Thomas in his dissent, the State wants to dispense with the scienter element of intentional
and knowing in favor of the generalized intent to kill another human being. The State’s position is
contrary to United States v. Bishop, 412 U.S. 346 (1973), which held “willfully” requires the
violation of a known legal duty in a tax fraud case, and was implicitly rejected by Rehaif v. United
States, 139 S. Ct. 2191 (2019) (requiring knowledge of the legal status that prohibited possession of
a firearm). The State’s theory, adopted by the Trial Court, is an outdated view of the state of law.
14

A.

Due Process requires the State put a defendant on notice of the elements
of its charges which it failed to do by presenting this as general intent
theory of murder based on depraved indifference instead of the specific
intent crime required for intentional and knowing murder.

Mr. Gaston’s defense relied on the facts alleged in the State’s indictment – that he had
intentionally or knowingly caused the death of Alicia Gaston. The way the indictment charged Mr.
Gaston supported the idea that he had to know it was Alicia because it failed to charge a depraved
indifference theory of murder and identified Alicia by name without mentioning that she was a
human being. Mr. Gaston was well within the confines of the law when he insisted that he neither
intended to kill Alicia nor that he had to rely on a collateral matter like mistaken self-defense. The
Trial Court should have told the jury when they asked, that the state had to prove that Mr. Gaston
knew it was Alicia.
This is not a case that can be dismissed by some version of the maxim that ignorance of the
law is no excuse. This Court has specifically rejected the idea that collateral matters like mistaken
self-defense are untenable as a state of mind defense:
In contrast, the maxim does not normally apply where a defendant “has a mistaken
impression concerning the legal effect of some collateral matter and that mistake
results in his misunderstanding the full significance of his conduct,” thereby negating
an element of the offense. Ibid.; see also Model Penal Code § 2.04, at 27 (a mistake
of law is a defense if the mistake negates the “knowledge ... required to establish a
material element of the offense”). Much of the confusion surrounding the ignoranceof-the-law maxim stems from “the failure to distinguish [these] two quite different
situations.”
Rehaif, at 2198. Those two defenses, mistake or self-defense, are collateral matters independent of
the scienter element that Mr. Gaston asks for in this case. The Trial Court misunderstood this aspect
of the defense presented by Mr. Gaston until the note from the jury forced the Trial Court to
recognize the problem. When the Court refused to clarify its instructions, Mr. Gaston was prejudiced
by the inaccurate statement of the law.
15

Mr. Gaston should have been allowed to focus the jury’s attention on what he believed was
happening in the darkness of those early morning hours in 2016. Mr. Gaston’s attempt to focus the
jury attention was through the use of common law principles that should have been applied to
Maine’s murder statute:
By contrast, we have not hesitated to turn to the common law for guidance when the relevant
statutory text does contain a term with an established meaning at common law. In Neder v.
United States, 527 U.S. 1, 119 S.Ct. 1827, 144 L.Ed.2d 35 (1999), for example, we addressed
whether materiality is required by federal statutes punishing a “scheme or artifice to defraud.”
Id., at 20, and 20–21, nn. 3–4, 119 S.Ct. 1827 (citing 18 U.S.C. §§ 1341, 1343, 1344). Unlike
the statute in Wells, which contained no common-law term, these statutes did include a
common-law term—“defraud.” 527 U.S., at 22, 119 S.Ct. 1827. Because common-law fraud
required proof of materiality, we applied the canon to hold that these federal statutes
implicitly contain a materiality requirement as well. Id., at 23, 119 S.Ct. 1827. Similarly, in
Evans v. United States, 504 U.S. 255, 261–264, 112 S.Ct. 1881, 119 L.Ed.2d 57 (1992), we
observed that “extortion” in 18 U.S.C. § 1951 was a common-law term, and proceeded to
interpret this term by reference to its meaning at common law.

Carter v. United States, 530 U.S. 255, 266 (2000). Mr. Gaston was simply asserting that the
common law term required proof he knew the fact that made his conduct illegal and that the figure
coming up the stairs was his wife. The question was not could Mr. Gaston shoot the person coming
up the stairs and be entitled to acquittal because of mistake or self-defense because those are just
collateral matters:
This case is similar. The defendant's status as an alien “illegally or unlawfully in the
United States” refers to a legal matter, but this legal matter is what the commentators
refer to as a “collateral” question of law. A defendant who does not know that he is an
alien “illegally or unlawfully in the United States” does not have the guilty state of
mind that the statute's language and purposes require.
Rehaif, at 2198. The question at the top of those stairs that early morning was “do I know that I have
no right to fire because that is my wife Alicia coming up the stairs?” Mr. Gaston’s answer was
tragically wrong but not because he understood the facts such that his acts constituted intentional or
knowing murder.
B.

Maine has historically described these legal principles as malice
16

aforethought and that analytical framework has largely survived the
adoption of the Model Penal Code as theories of express malice or implied
malice.
While it was unnecessary to prove that a specific plan to cause the death of a specific person
existed under Maine’s old murder principles, it was necessary for the evidence to support either a
finding of express malice or implied malice:
Express malice exists where one with a sedate, deliberate mind, and a formed design,
doth kill another; which formed design is evidenced by external circumstances
discovering the inward intention, as by lying in wait, antecedent menaces, former
grudges, and concerted schemes to take life. Implied malice is an inference of law
upon the facts found by a jury. It exists where one attempts to kill or maim one
person, and in the attempt kills another against whom no injury was intended, or in
general, in any deliberate attempt to commit a felonious act, and death is occasioned
in the execution of such attempt, although the original intention may not have been to
take life. When the killing is unlawful, and neither express nor implied malice exists,
the crime is reduced from murder to manslaughter. But in all cases where the
unlawful killing is proved, and there is nothing in the circumstances of the case as
proved, to explain, justify or excuse the act, the law presumes it to have been done
maliciously; and if the accused would reduce the crime below the degree of murder,
the burden is upon him to rebut the inference of malice which the law raises from the
act of killing, by evidence in [defense].
State v. Knight, 43 ME 11, 35 (1857). Under the old rubric of malice, it was unnecessary to charge a
specific express or implied theory of murder, but these historical distinctions of malice eventually
served as the underpinnings of Maine’s current murder statute. The concept of express malice would
develop into what is referred to currently as the intentional or knowing theory of murder while the
concept of implied malice would develop into what is currently known as the depraved indifference
theory of murder.
In cases such as this, when the identity of the soon-to-be-decedent was unknown, Maine law
has always required either an implied malice theory of murder (pre-code) or, later, a depraved
indifference theory of murder (post-code). Again, Knight should be highlighted because transferred
intent is an implied theory of malice.
17

Implied malice is an inference of law upon the facts found by a jury. It exists where
one attempts to kill or maim one person, and in the attempt kills another against
whom no injury was intended, or in general, in any deliberate attempt to commit a
felonious act, and death is occasioned in the execution of such attempt, although the
original intention may not have been to take life.
State v. Knight, 43 ME 11, 35 (1857). As an example, the Maine Supreme Judicial Court upheld a
jury instruction providing a concrete example of how this theory could play out:
“Now, supposing that you visualize another man sitting on the side of a hill with a
rifle - - - a loaded rifle in his hand and a passenger train, although we don't have any
left, going by and he just shoots abandonly right at them. He doesn't have any specific
intent to kill anybody but certainly that would be a reckless, brutal act with a high
potential of loss of life. That would be an illustration of murder implied. Malice
aforethought not express but implied, see, that would be a highly reckless action quite
likely to result in death even though he has no specific intent to kill and, finally, the
man, as I said before, sits down, picks up some reason in his mind to intentionally kill
another human being, secures a gun, loads it, waits in ambush and shoots him
deliberately; that would, of course, be malice aforethought expressed.”
State v Lewisohn, 379 A.2d 1192, 1207 (Me. 1977). This fictional scenario offered by the judge in
Lewisohn is exactly the difference between what the State argued and what is necessary to prove
intentional and knowing murder. What occurred in that stairway is exactly what it would be to shoot
at the moving passenger train because the State lacked the evidence Mr. Gaston intended to kill
Alicia, rather than a shadowy intruder. It is the very distinction the State made in their closing
argument: The State simply failed in their attempt to portray the events of this case as somehow
proving that Mr. Gaston knew it was Alicia coming up the stairs at him.
Understanding the underpinnings of Maine’s murder law is not an unnecessary “historical
analysis,” as inferred in some arguments made by the State. Rather, the historical development of
implied malice is still relevant to interpreting the requirements of Maine’s current Murder statute.
The historical view of malice was last used to explain depraved indifference in 2017:
The depraved indifference murder statute, section 201(1)(B), has replaced a common
law definition of murder that allowed a fact-finder to convict a person of murder upon
18

“proof of conduct which objectively evaluated is characterized by a high death
producing potential.” State v. Woodbury, 403 A.2d 1166, 1172–73 (Me. 1979)
(quotation marks omitted). Depraved indifference is derived from the concept of
“implied malice,” which is distinct from the state of mind characterized by the
Criminal Code as recklessness because recklessness requires a subjective awareness
of a risk. Id. at 1172–73 & n.9. We have not construed depraved indifference as
incorporating a culpable mental state. Instead, we have construed section 201(1)(B)
“to deal with those few instances in which, although the defendant did not act
intentionally or knowingly, his conduct, objectively viewed, created such a high
tendency to produce death that the law attributes to him the highest degree of
blameworthiness.” State v. Lagasse, 410 A.2d 537, 540 (Me. 1980) (emphasis
added); see also State v. Thongsavanh, 2007 ME 20, ¶ 38, 915 A.2d 421 (“The
offense does not require evidence of a defendant's subjective state of mind.”).
State v. Cummings, 166 A.3d 996, 1001 (Me 2017). There can be no doubt that the historical concept
of malice is as relevant to the current murder statute as it was to the pre-1976 murder statute. The
Maine Supreme Judicial Court’s use of the historical analysis could not be clearer and the State’s
confusion over it can be explained only by their refusal to acknowledge the damage the historical
analysis does to their position. The State’s failure to charge depraved indifference should have been
fatal to the conviction by its very admission because the State argued an implied malice theory of
murder – transferred intent.
Rather than address how the Maine Supreme Judicial Court should define the difference
between the intentional and knowing theory of murder and the depraved indifference theory of
murder, the State offered only misdirection by saying they simply argued the “plain language of the
intentional or knowing murder alternative delineated in section 201(1)(A) – that it had to prove that
Gaston intentionally or knowingly engaged in conduct that caused the death of “another human
being.” The State also relies on the fact that “[a]s charged in the indictment, that human being was
Alicia Gaston.” This argument was entirely adopted by the Maine Supreme Judicial Court.
The act of causing the death of an unnamed and unknown human being is not “intentional or
knowing” murder; it is depraved indifference murder. While to date declining to define the
19

difference, the Maine Supreme Judicial Court has acknowledged there are two independent theories
of murder in Maine: intentional and knowing or depraved indifference. There is nothing about what
the State argued to the jury that involves the plain language of the 17-A M.R.S. § 201. The plain
language would have required an understanding of the historical analysis and the terms express
malice and implied malice.
C.

Intentional and knowing murder requires a different level of scienter
than depraved indifference murder.

Unlike this Court, the Maine Supreme Judicial Court has not addressed the claim of
intentional or knowing requires proof of scienter and not just the intention to cause death to some
other human being. The closest the Maine Supreme Judicial Court has come to addressing scienter in
this way has been in the context of the abnormal condition of mind defense. In State v. Proia, this
Court found it wasn’t error when a trial court found the defendant was acting consistently “through
the lens of his delusional apprehension of reality,” one that did not “prevent him from acting with the
required culpable states of mind.” State v. Proia, 168 A.3d 798, 802 (2017). More recently, the
Court again addressed the abnormal condition of the mind defense in State v Weyland, 2020 ME
129, __ A.3d __, when finding the lower court acted within its discretion when it found the
defendant “acted with a culpable state of mind on the day of the offense.” If the decisions in Proia
and Weyland exemplify proof of scienter, however, they suggest intentional and knowing murder is
not satisfied by the intention to kill another human being generally.
The requirement of specific intent for “intentional or knowing” is supported by Maine’s
criminal statutes requiring four culpable states of mind. Maine law subsumes the concept of willfully
into intentional and knowing:
1. A person is not guilty of a crime unless that person acted intentionally,
knowingly, recklessly or negligently, as the law defining the crime specifies, with
20

respect to each other element of the crime… When the state of mind required to
establish an element of a crime is specified as "willfully," "corruptly," "maliciously" or
by some other term importing a state of mind, that element is satisfied if, with respect
thereto, the person acted intentionally or knowingly.
2. When the definition of a crime specifies the state of mind sufficient for the
commission of that crime, but without distinguishing among the elements thereof, the
specified state of mind applies to all the other elements of the crime…
17-A M.R.S.§ 34 (West 2020). The statute’s language establishes willfully as having a parity with
intentional or knowing. The timing of the legislative enactment is significant here: willfully has
already been defined as requiring intentional violation of a known legal duty in United States v.
Bishop. There is no indication the legislature intended to create a less stringent version of willfully.
This aspect of malice with its two subsets of express and implied malice as applied under the old
murder rubric was lost in the more straightforward articulation of murder based on the theory of
intentional or knowing theory of murder or the depraved indifference theory of murder in the current
statute that divides malice into two theories.
D.

The given jury instructions only reflected the general intent theory.

The jury instructions delivered at the close of evidence did not require proof of scienter and
allowed for a conviction under a theory of depraved indifference murder even though that theory
was not charged. Maine’s criminal statutes allows murder to be charged as either a theory of
intentional and knowing or a theory of depraved indifference:
A person is guilty of murder if the person:
A.

Intentionally or knowingly causes the death of another human being;

B.

Engages in conduct that manifests a depraved indifference to the value of
human life and that in fact causes the death of another human being; or

C.

Intentionally or knowingly causes another human being to commit suicide by
the use of force, duress or deception.

21

17-A M.R.S. § 201(1) (West 2020). At the end of trial, Mr. Gaston was charged with one count of
intentional or knowing murder by an indictment that did not charge the depraved indifference theory
of culpability. At the charge conference, the State asserted that murder only required the intent to kill
another human being. Mr. Gaston objected to this theory of intent, asserting that the State had to
prove that Mr. Gaston knew it was not just another human being but that he knew it was Alicia.
Because the intentional and knowing theory of culpability requires the State to prove the element of
scienter that Mr. Gaston was aware of the facts that made his actions unlawful it was necessary to
prove that he intended or knew it was Alicia on the stairway. The Trial Court chose to deliver a
general intent instruction that did not require proof that Mr. Gaston knew it was Alicia and the jury
convicted Mr. Gaston.
The Trial Court decision to deliver a general intent instruction was born out of its failure to
recognize intentional or knowing required something more than the intention to act, or knowing that
you acted; it required knowledge the actions were unlawful. A characterization determined by Mr.
Gaston’s knowledge of the identity of the figure charging up the stairs at him. There was very little
evidence from the attendant circumstances that allowed for the inference that Mr. Gaston knew the
figure on the stairs was Alicia and no evidence Mr. Gaston subjectively knew it was Alicia until after
the shot gun fired. Had the figure been an actual intruder, Mr. Gaston would not be guilty of a crime.
Mr. Gaston requested jury instructions that referred to Alicia Gaston instead of another
person. This request was a correct statement of the law in that he had to know it was Alicia for his
conduct to be wrongful. It wasn’t enough in this case that someone died because Mr. Gaston
engaged in conduct that demonstrated a depraved indifference to human life nor was he required to
rely on the notion of mistaken self-defense that resulted in the death of his wife. It was entirely
legitimate for him to insist that the charged theory of murder required the state to prove that he knew
22

it was Alicia and jury instruction did not require that in this case.

II.

Due process was violated because “Intentional and knowing” because federal
law defines knowing as requiring specific intent and knowledge of the fact that
makes the conduct unlawful.

Over time, this Court has begun actively defining the proof necessary for the knowing
culpable state of mind applied in federal criminal trials. In so doing, it has been addressing the
misconception in the application of knowing and redirecting the focus from the act (e.g., was the
person conscious of doing an act) to the mental state (e.g., did the person know an act was wrong).
The fact that the statute does not specify any required mental state, however, does not
mean that none exists. We have repeatedly held that “mere omission from a criminal
enactment of any mention of criminal intent” should not be read “as dispensing with
it.” This rule of construction reflects the basic principle that “wrongdoing must be
conscious to be criminal.” As Justice Jackson explained, this principle is “as universal
and persistent in mature systems of law as belief in freedom of the human will and a
consequent ability and duty of the normal individual to choose between good and
evil.” The “central thought” is that a defendant must be “blameworthy in mind”
before he can be found guilty, a concept courts have expressed over time through
various terms such as mens rea, scienter, malice aforethought, guilty knowledge, and
the like. Although there are exceptions, the “general rule” is that a guilty mind is “a
necessary element in the indictment and proof of every crime.” We therefore
generally “interpret [ ] criminal statutes to include broadly applicable scienter
requirements, even where the statute by its terms does not contain them.”
Elonis at 2009 (internal citations omitted). In requiring scienter in this way, Elonis clarifies the
burden of proof required to prove an element of a crime – knowing now requires some fact
establishing consciousness of wrongdoing:
[18 U.S.C. §] 875(c), as noted, requires proof that a communication was transmitted
and that it contained a threat. The “presumption in favor of a scienter requirement
should apply to each of the statutory elements that criminalize otherwise innocent
conduct.” United States v. X–Citement Video, 513 U.S. 64 72, 115 S.Ct. 464 (1994)
(emphasis added). The parties agree that a defendant under Section 875(c) must know
that he is transmitting a communication. But communicating something is not what
makes the conduct “wrongful.” Here “the crucial element separating legal innocence
23

from wrongful conduct” is the threatening nature of the communication. Id., at 73,
115 S.Ct. 464. The mental state requirement must therefore apply to the fact that the
communication contains a threat.
Id., at 2011. These scienter terms are a part of Maine’s current murder statute. There is no doubt that
Maine requires scienter for murder. The problem comes in determining to what degree that scienter
must be specific. Mr. Gaston asserts that his case lays in the void between Staples v. United States,
511 U.S. 600 (1994) and Rehaif v. United States, 139 S. Ct. 2191 (2019). Mr. Gaston asks this Court
to determine the level of specific intent required for the knowing culpable state of mind.
At least two of this Court’s prior decisions support the idea that general intent is enough for
murder in Maine. Justice Thomas has articulated the caution with which this Court has expanded the
requirement of scienter:
In this case, as in Staples, a general intent requirement suffices to separate wrongful
from “otherwise innocent” conduct. Section 2113(a) certainly should not be
interpreted to apply to the hypothetical person who engages in forceful taking of
money while sleepwalking (innocent, if aberrant activity), but this result is
accomplished simply by requiring, as Staples did, general intent—i.e., proof of
knowledge with respect to the actus reus of the crime. And once this mental state and
actus reus are shown, the concerns underlying the presumption in favor of scienter are
fully satisfied,for *270 a forceful taking —even by a defendant who takes under a
good-faith claim of right—falls outside the realm of the “otherwise innocent.” Thus,
the presumption in favor of scienter does not justify reading a specific intent
requirement—“intent to steal or purloin”—into § 2113(a).
Carter, at 269-270. Under a general intent theory of murder, the intent to kill is the dividing line
between lawful and unlawful conduct. This Court, though, has adjusted the level of intent on the
need distinguish innocent conduct. While many might draw that line at killing a human being, that
is not the line traditionally drawn by murder convictions and killing itself is not the line between
innocent conduct and unlawful conduct.
To some extent, Mr. Gaston is asking this Court to infer a specific degree of scienter into the
human being element. Recently, the Court reiterated this historical legacy of making this kind of
24

inference:
The cases in which we have emphasized scienter's importance in separating wrongful
from innocent acts are legion. See, e.g. X–Citement Video, 513 U.S. at 70, 115 S.Ct.
464; Staples v. United States, 511 U.S. 600, 610, 114 S.Ct. 1793 (1994); Liparota v.
United States, 471 U.S. 419, 425, 105 S.Ct. 2084, 85 L.Ed.2d 434 (1985); United
States v. Bailey, 444 U.S. 394, 406, n. 6, 100 S.Ct. 624, 62 L.Ed.2d 575 (1980);
United States v. United States Gypsum Co., 438 U.S. 422, 436, 98 S.Ct. 2864, 57
L.Ed.2d 854 (1978); Morissette v. United States, 342 U.S. 246, 250–251, 72 S.Ct. 240
(1952). We have interpreted statutes to include a scienter requirement even where the
statutory text is silent on the question. See Staples, 511 U.S. at 605, 114 S.Ct. 1793.
And we have interpreted statutes to include a scienter requirement even where “the
most grammatical reading of the statute” does not support one. X-Citement Video, 513
U.S. at 70, 115 S.Ct. 464.
Rehaif at 2196-97. This principle was well established when the State charged Mr. Gaston with the
death of his wife. In this case, Mr. Gaston asks the Court to apply the definition of knowing from
Rehaif to the human being element of murder in Maine. While it may not be innocent conduct to kill
another human being, something more than general intent to kill is necessary to distinguish murder
from an act of self-defense. The indictment did in fact charge him with killing Alicia and not a
human being.
While Justice Thomas has clearly expressed many reservations about expending an inference
of specific intent, he has also articulated circumstance where specific intent may be necessary.
Again, Carter explains when scienter should be expanded:
The presumption in favor of scienter requires a court to read into a statute only that
mens rea which is necessary to separate wrongful conduct from “otherwise innocent
conduct.” X–Citement Video, supra, at 72, 115 S.Ct. 464. In Staples v. United States,
511 U.S. 600, 114 S.Ct. 1793, 128 L.Ed.2d 608 (1994), for example, to avoid
criminalizing the innocent activity of gun ownership, we interpreted a federal
firearms statute to require proof that the defendant knew that the weapon he
possessed had the characteristics bringing it within the scope of the statute. Id., at
611–612, 114 S.Ct. 1793. See also, e.g., Liparota v. United States, 471 U.S. 419, 426,
105 S.Ct. 2084, 85 L.Ed.2d 434 (1985); Morissette, 342 U.S., at 270–271, 72 S.Ct.
240. By contrast, some situations may call for implying a specific intent requirement
into statutory text. Suppose, for example, a statute identical to § 2113(b) but without
the words “intent to steal or purloin.” Such a statute would run the risk of punishing
25

seemingly innocent conduct in the case of a defendant who peaceably takes money
believing it to be his. Reading the statute to require that the defendant possess general
intent with respect to the actus reus—i.e., that he know that he is physically taking the
money—would fail to protect the innocent actor. The statute therefore would need to
be read to require not only general intent, but also specific intent—i.e., that the
defendant take the money with “intent to steal or purloin.”
Carter, at 269. Mr. Gaston asserts that the element of human being in Maine’s murder
statute suffers from such a defect that requires the inference of specific intent. Simply put,
not every instance of causing someone’s death is unlawful. The lawful or unlawful line is
often a matter of the status of a human being. In other words, the line in this case is between
killing his wife and killing an intruder both of whom would be human beings. Mr. Gaston
asks the Court to apply this principle to his case.

III.

The United States Supreme Court should grant the Petition for a Writ of
Certiorari to resolve what specific intent is required for the knowing culpable
state of mind.

The Court should take this opportunity to resolve this injustice. Mr. Gaston has been
sentenced to 40 years for the act of trying to protect his family because that protective act carried
with it the intention to kill. The knowing standard as defined by Maine law is simply inadequate in
separating the lawful act of defending his family from the unlawful act of killing his wife. The Court
should now apply the full import of knowing as defined in Rehaif.
The case is an excellent vehicle for enforcing the idea that the knowing culpable mental state
requires a defendant to be aware of the facts that make his conduct unlawful. The Indictment
charged the crime of intentional and knowing murder a theory of express malice and not depraved
indifference murder a theory of implied malice. The Indictment specifically identified Alicia by
26

name and not just a human being. Counsel structured Mr. Gaston’s defense around the idea that
self-defense and a mistake would never overcome the jury’s resistance to finding justification for
Mr. Gaston’s acts that resulted in his wife’s death. Counsel articulated the state of mind defense at
the charge conference and was specifically order not to argue that defense to the jury. In this case,
the issue has been squarely presented throughout the trial process.
Defining how the culpable state of mind of knowing operates in the context of murder
affects more than just Mr. Gaston. Maine has adopted the Model Penal Code for its murder statute.
This case would resolve this issue for every state that has also adopted the Model Penal code’s
definition of murder.

CONCLUSION
The Supreme Court Should review the conclusion of the Maine Supreme Judicial Court and
Grant this petition for writ of certiorari.
Dated at Portland, Maine this 26th day of September 2021.

Robert C. Andrews
Attorney for Noah Gaston
Bar Number 88418
ROBERT C. ANDREWS ESQUIRE P.C.
117 Auburn Street Suite 201
Portland, ME 04103
(207) 879-9850

27

